U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

September 22, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Melvin Whitehead v. United States, No. 20-5278
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on July 31, 2020.
The government’s response is now due, after one extension, on October 5, 2020. We respectfully
request, under Rule 30.4 of the Rules of this Court, a further extension of time to and including
November 4, 2020, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

20-5278
WHITEHEAD, MELVIN
USA

PEGGY SASSO
OFFICE OF THE FEDERAL DEFENDER
2300 TULARE STREET
STE. 330
FRESNO, CA 93721
559-487-5561
PEGGY_SASSO@FD.ORG

